Certificate of Service
I hereby certify that a true and correct copy of the forgoing has been furnished via
electronic mail to: Anthony Yanez at avanez@blankrome.com. Nicole Topper at
ntopper@blankrome.com of Blank Rome, LLP and McCabe, Weisberg & Conway,
LLC at flpeadings@mwc.law.com on this 6th day of July 2020.

James L. Robison, petitioner pro se
1058 North Tamiami Trail Suite 108-118
Sarasota, Florida 34236
Telephone^ 941-266-6300
e-mail: jlrobison3@gmail.com

CERTIFICATE AS TO COMPUTER GENERATED FONT
I HEREBY CERTIFY that the font used in this computer-generated document is
Century family 12 point font, in compliance with United States Supreme Court rule
33.

JaVJties L. Robison, pro se
e-mail: ilrobison3@gmail.com
Telephone: 941-266-6300

(/W\M (V^fioA- rf" 5^^

b CforK of"tW
nJIK

Certificate of Service
I hereby certify that a true and correct copy of the forgoing has been furnished via
electronic mail to: Anthony Yanez at avanez@blankrome.com. Nicole Topper at
ntopper@blankrome.com of Blank Rome, LLP and McCabe, Weisberg & Conway,
LLC at flpeadings@mwc.law.com and Robert O’Neill, Esq. at robert.oneill@usdoi.gov
and 3 copies being mailed via U.S. postal service to the Solicitor General of the
United States, Room 5614, Dept, of Justice,950 Pennsylvania Avenue, Washington,
D.C. 20530-0001 on this 5th day of August, 2020.

AvesHlII'1-0
Jamijs L. Robison, petitioner pro se
1058 North Tamiami Trail Suite 108-118
Sarasota, Florida 34236
Telephone: 941-266-6300
email: jlrobison3@gmail.com

CERTIFICATE AS TO COMPUTER GENERATED FONT
I HEREBY CERTIFY that the font used in this computer-generated document is
century family 12 point font, in compliance with United States Supreme Court rule
33.

James L. Robisbn, pro se
email: ilrobison3@gmail.com
Telephone: 941-266-6300

